HHS/OIG, Audit - "Audit of Lebanon Repatriation Program Funds,"
(A-01-07-02501)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of Lebanon Repatriation Program Funds,"
(A-01-07-02501)
February 28, 2007
Complete Text of Report is available in PDF format (722 kb). Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
In July 2006, the Department of State notified the Administration for Children and Families (ACF) of an imminent emergency repatriation from Lebanon. Under the Lebanon Repatriation Program (the Program), ACF offered temporary assistance to repatriates at four ports of entry located in Georgia, Maryland, New Jersey, and Pennsylvania.
Our objectives were to determine (1) how ACF expended Program funds and (2) whether ACF followed Federal requirements in reimbursing States for their administrative costs and in seeking recovery of temporary assistance costs from repatriates.
ACF did not always follow Federal requirements in reimbursing States for their administrative costs or in seeking recovery of temporary assistance costs from repatriates. As of December 6, 2006, ACF had reimbursed Pennsylvania for $125,211 in estimated, rather than actual, administrative costs, contrary to Federal guidance. In addition, ACF had not submitted bills for 239 temporary assistance loans totaling $135,344 that Federal regulations require repatriates to repay.
We recommended that ACF: (1) obtain a refund from Pennsylvania for $125,211 in estimated administrative costs, (2) provide the Program Support Center (PSC) with all necessary information on temporary assistance loans and direct PSC to bill repatriates for outstanding loans, (3) ensure that States are aware of the requirement to provide adequate documentation for claimed administrative costs, and (4) implement written monitoring procedures to ensure that PSC bills for temporary assistance costs that repatriates owe the Federal Government. ACF generally agreed with our recommendations.